OFFICE OF INSPECTOR GENERAL 

 for the Millennium Challenge Corporation 


AUDIT OF THE MILLENNIUM CHALLENGE
CORPORATION’S FINANCIAL STATEMENTS,
INTERNAL CONTROLS, AND COMPLIANCE
FOR THE PERIOD ENDING SEPTEMBER 30,
2007 AND 2006




AUDIT REPORT NO. M-000-08-001-C
November 9, 2007




WASHINGTON, DC

Office of Inspector General
   for the
Millennium Challenge Corporation


November 9, 2007


The Honorable John J. Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005-2203


Subject:	            Audit of the Millennium Challenge Corporation’s Financial Statements, Internal
                     Controls, and Compliance for the Period Ending September 30, 2007 and 2006
                     Report No. M-000-08-001-C


Dear Mr. Ambassador:

Enclosed is the final report on the subject audit. The Office of Inspector General (OIG)
contracted with the independent certified public accounting firm of Williams Adley & Company,
LLP to audit the financial statements of the Millennium Challenge Corporation (MCC) for the
period ending September 30, 2007. The contract required that the audit be performed in
accordance with United States Generally Accepted Government Auditing Standards, Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements, and the GAO/PCIE Financial Audit Manual.

In its audit of the MCC’s financial statements for the period ending September 30, 2007 the
auditors found:

     •	 The financial statements were fairly presented in conformity with U.S. Generally 

        Accepted Accounting Principals. 


     •	 MCC’s internal controls over financial reporting and its operation contained two 

        significant deficiencies. These significant deficiencies are material weaknesses. 


     •	 MCC had two instances of material noncompliance with laws and regulations.

The material weaknesses identified in MCC’s internal controls process increases MCC’s need to
develop written policies and procedures to streamline its financial operations. Under current
operating procedures, the material weaknesses increase the risk of improper recording,
unauthorized transactions, omissions, potential funds control violations and noncompliance with
U.S. Agency for International Development
1401 H Street, N.W.
Washington, DC 20005
www.usaid.gov
laws, regulations, contracts and grant agreements. Williams Adley & Company, LLP reported
the following internal control weaknesses:

       1. 	 MCC did not sufficiently execute its monitoring functions related to advances.

       2. 	 MCC lacks written policies and procedures related to financial reporting
            accountability and document control.


Williams Adley & Company, LLP also reported instances of noncompliance with laws,
regulations, contracts, and grant agreements, inclusive of those referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA) and disclosed instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards, issued by the Comptroller General of the United States, and OMB Bulletin 07-04,
Audit Requirements for Federal Financial Statements. The instances of noncompliance are:

       1. 	 MCC did not fully comply with FFMIA (material noncompliance).

       2. 	MCC did not fully comply with the Federal Information Security Management Act
           (FISMA) (material noncompliance).

In carrying out its oversight responsibilities, the OIG reviewed Williams Adley & Company, LLP’s
report and related audit documentation. This review, as differentiated from an audit in
accordance with U.S. Generally Accepted Government Auditing Standards, was not intended to
enable the OIG to express, and we do not express, opinions on MCC’s financial statements, or
internal control; on whether MCC’s financial management systems substantially complied with
FFMIA; or on MCC’s compliance with other laws and regulations. Williams Adley & Company,
LLP is responsible for the attached auditor’s report, dated October 23, 2007, and the
conclusions expressed in the report. However, our review disclosed no instances that Williams
Adley & Company, LLP did not comply, in all material respects, with applicable standards.

To address the internal control weaknesses and the noncompliance findings reported by
Williams Adley & Company, LLP, we are making the following recommendations to MCC’s
management:

       Recommendation No. 1: We recommend that the Millennium Challenge
       Corporation’s management:

               1.1. Implement a policy that reduces outstanding advances based on the
       First-in, First-out (FIFO) method.

             1.2. Implement the common payment system for all MCAs on a more
       aggressive timeline.

            1.3. Make payments in accordance with the monthly schedule, and if a
       payment is held, consider the need for it to be disbursed at all.

              1.4. Ensure that there is a more rigorous review of advance requests
       including an assessment of outstanding advances.




                                            2
       Recommendation No. 2: We recommend that the Millennium Challenge
       Corporation management:

             2.1. Formally document the MCC accountability for ensuring MCA
       compliance with the reporting provisions.

              2.2. Implement document retention policies that include standards for
       version control and a central repository for documents that are used by multiple
       MCC units.

             2.3. Continue with the planned implementation of the BIDS project and
       ensure that information is validated prior to inclusion in the new system.


       Recommendation No. 3: We recommend that management continue to assess the
       automated options available to handle the Millennium Challenge Corporation
       operations and develop short range and long range plans for the implementation
       of the most appropriate information technology structure to address electronic
       integration of, at least, the payroll, procurement and travel functions and systems
       to increase the efficiencies and effectiveness of the processing of financial
       transactions, and decrease the risk of errors.



In finalizing the report, we received and considered MCC’s response to the draft report and the
recommendations included therein. In its comments, MCC was generally responsive; however,
the corporation did not provide estimated implementation dates for corrective action on
recommendations 1 and 3.

Please provide revised management decisions for recommendations 1 and 3, and inform us
when you have taken final action on recommendation number 2.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
Williams Adley & Company, LLP during the audit. Please contact me or Richard J. Taylor,
Director, Financial Audits Division, at (202) 216-6963, if you have any questions concerning this
report.

Sincerely,

/s/
John M. Phee
Assistant Inspector General
Millennium Challenge Corporation




                                            3

                                    TABLE OF CONTENTS



                                                         Page

Independent Auditor’s Report                               1


   Opinion on the Financial Statements                     2


   Internal Control over Financial Reporting               3


   Compliance with Laws and Regulations                    9


   Status of Prior Year Findings – Appendix A              12 


   Management Comments and Our Evaluation – Appendix B     21 


   Management Comments – Appendix C                        24 


Balance Sheet                                              28     


Statements of Budgetary Resources                          29     


Statement of Net Costs                                     30     


Statement of Changes in Net Position                       31 


Notes to Financial Statements                              32     

                            Williams, Adley & Company, LLP
Certified Public Accountants/Financial Management Consultants




                                        Independent Auditors’ Report


Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the accompanying Statements of Financial Position of the Millennium
Challenge Corporation (MCC or Corporation) as of September 30, 2007 and 2006 and the related
Statements of Net Costs, Changes in Net Position, and Budgetary Resources for the year ended
September 30, 2007 and 2006. These financial statements are the responsibility of Corporation
management. Our responsibility is to express an opinion on these financial statements based on
our audit.

In the prior fiscal year MCC prepared their financial statements in accordance with the
requirements of the Government Corporation Control Act and the OMB Circular A-136
requirement for 45 day reporting. In fiscal year 2007 MCC decided to early adopt all
requirements of OMB Circular A-136, as permitted by the Circular. The requirements resulted
in a change in the financial statements presented by the Corporation. The fiscal year 2006
information has been formatted in accordance with the new presentation.

In connection with our audit, we also considered the MCC’s internal control over financial
reporting and tested the MCC’s compliance with certain provisions of applicable laws,
regulations, contracts and grant agreements that could have a direct and material effect on the
financial statements.

SUMMARY

As stated in our opinion, we concluded that the MCC’s financial statements as of and for the year
ended September 30, 2007 and 2006 are presented fairly, in all material respects, in conformity
with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting and its operation resulted in two
matters that we consider to be significant deficiencies. We believe that these significant
deficiencies are material weaknesses.
   1. 	 MCC Did Not Sufficiently Execute Its Monitoring Functions Related to Advances


   2. 	 MCC Lacks Written Policies and Procedures Related to Financial Reporting
       Accountability and Document Control



The results of our tests of compliance with certain provisions of laws, regulations, contracts,
and grant agreements, inclusive of those referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA), disclosed two instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards, issued
by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements:

   3.	 MCC did not fully comply with FFMIA (material noncompliance)

   4.	 MCC did not fully comply with Federal Information Security Management Act
       (material noncompliance)

The following sections discuss our opinion on the MCC’s financial statements, our
consideration of the MCC’s internal control over financial reporting, our tests of the MCC’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements, and the distribution of our report. The status of prior year findings is included as
Appendix A. Management’s response to the findings and our evaluation of said response is
included as Appendix C and Appendix B, respectively. We noted other matters that were
communicated to management in a separate letter.


OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying Statements of Financial Position of the Corporation as of
September 30, 2007 and 2006, and the related Statements of Net Costs, Changes in Net
Position, and Budgetary Resources for the year ended September 30, 2007 and 2006. These
financial statements are the responsibility of Corporation management. Our responsibility is
to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, and
the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance that the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the



                                         Page 2 of 40
overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In the prior fiscal year MCC prepared their financial statements in accordance with the
requirements of the Government Corporation Control Act and the OMB Circular A-136
requirement for 45 day reporting. In fiscal year 2007 MCC decided to early adopt all
requirements of OMB Circular A-136, as permitted by the Circular. The requirements
resulted in a change in the financial statements presented by the Corporation. The fiscal year
2006 information has been formatted in accordance with the new presentation.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial positions of the Corporation as of September 30, 2007 and 2006, and
changes in net position, net costs, and budgetary resources for the years ended September 30,
2007 and 2006, in conformity with accounting principles generally accepted in the United
States of America.

Our audit was made for the purpose of forming an opinion on the basic financial statements
of the Corporation taken as a whole. The information contained in the Management’s
Discussion and Analysis and Performance Section is not a required part of the financial
statements, but is supplementary information required by the Federal Accounting Standards
Advisory Board guidance. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and
presentation of the information. However, we did not audit the information and do not
express an opinion thereon.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our fiscal year 2007 audit, we considered MCC’s internal control
over financial reporting by obtaining an understanding of MCC’s internal control, determined
whether internal controls had been placed into operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing an opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 07-04 and
Government Auditing Standards. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), such as those controls relevant to ensuring efficient operations. The objective of
our audit was not to provide assurance on internal control; accordingly, we do not provide an
opinion on internal control.

Our consideration of internal control over financial reporting would not necessarily disclose
all matters that might be reportable conditions. Under standards issued by the American
Institute of Certified Public Accountants, significant deficiencies are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control
over financial reporting that, in our judgment, could adversely affect MCC’s ability to record,




                                         Page 3 of 40
process, summarize, and report financial data consistent with the assertions by management
in the financial statements.

Material weaknesses are significant deficiencies in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal
controls, misstatements, losses or noncompliance may occur and not be detected.

We noted two matters involving the internal control over financial reporting and its operation
that we consider to be significant deficiencies. We believe that these significant deficiencies
are material weaknesses. We noted other matters that were communicated to management in
a separate letter.


MATERIAL WEAKNESSES



MCC Did Not Sufficiently Execute Its Monitoring Functions Related to Advances



Condition:

MCC entered into various compacts and provided several advances during fiscal year 2007.
MCC personnel indicated that monthly disbursements were made based upon the quarterly
disbursement requests. Current policies and procedures require that the disbursement
requests are reviewed by several organizations within MCC for reasonableness, accuracy and
need. Also, MCC personnel indicated that advances are generally liquidated within
approximately 180 days using the quarterly financial reports provided by the Millennium
Challenge Accounts (MCAs). The current policy requires that outstanding advances are
liquidated within the Oracle Federal Financial System on the First-in First-out (FIFO) basis.
However, we noted the following:

   1.	 Several advances were not liquidated within 180 days (see chart below).

   2.	 Advances were not always liquidated on the FIFO basis. For example, we noted that
       although Georgia had an advance for $255,713 outstanding for 541 days, re-
       disbursements equaling $6,477,332 were posted against an advance that was 348 days
       outstanding instead. Additionally, we noted that Ghana had advances totaling
       $3,065,233 outstanding for 290 days or greater, however, re-disbursements totaling
       $685,738 were posted against an advance outstanding for 207 days.




                                         Page 4 of 40
   3.	 MCAs were granted additional funds in spite of open advances that were outstanding
       for 180 days or greater. We noted that Madagascar had outstanding advances totaling
       $13,790,783 as of June 30, 2007, with re-disbursements posted of $2,467,082, and
       received additional advances of $1,110,762 for August and $3,663,616 for
       September.

   4.	 We noted that monthly tranches were not always issued properly. Three MCAs
       received two months of advances within one month. We noted that El Salvador
       received $1,361,939 and $364,347 on August 1, 2007 for the months of July and
       August; and Georgia received $3,655,620 and $3,500,000 on June 29, 2007 for the
       months of March and June.

   5.	 The fourth quarter financial reports indicated that four MCAs had cash on hand of
       greater than 30 days cash needs as evidenced by no disbursement requested until the
       second month of the quarter or in one instance no disbursement was requested for the
       entire quarter.


  Country          Date of           Amount of        Amount                Days
                Disbursement        Disbursement    Remaining as         Outstanding
                                                     of 9/30/07
 Benin             8/31/2007             $1,531,951     $556,849              264

 Georgia           2/26/2007            $10,913,824       $5,966,180          348

 Ghana             6/14/2007               $863,315         $299,414          294
                   3/7/2007                 $55,620          $55,620          207


Also, in our review of the outstanding advances we noted that interagency advances to the
Department of Treasury of $1,611,899 and U.S. Agency for International Development
(USAID) of $120,000 were over 365 days outstanding.

The Department of the Treasury’s Financial Management Service publications did not
envision the inclusion of sovereign governments; however, in the analysis of cash
management, we used the Treasury Financial Manual (TFM) as a valuable source of sound
business practices. The TFM is the Department of the Treasury's official publication for
financial accounting and reporting of all receipts and disbursements of the Federal
Government. The purpose of the TFM is to provide policies, procedures, and instructions for
Federal departments and agencies to follow in carrying out their fiscal responsibilities.

Also, through various OMB Circulars, OMB has attempted to address the need for advances
to cover immediate cash needs or timely disbursements of an entity for direct program costs
for carrying out the purpose of the approved program or project. Thus, funds paid to a
grantee are not to be held, but are to be promptly applied to the grant purpose. Although the
timeframe for immediate cash needs has not been clearly defined by OMB, the general rules


                                        Page 5 of 40
employed by various Federal agencies are 30 days for non-governmental entities as outlined
in the TFM. Based upon this definition, MCC has provided Federal funds in excess of
immediate cash needs.

Criteria:

Per the Appropriations Law Volume II, advances under an assistance program are intended to
accomplish the program purposes and not to profit the recipient other than in the manner and
extent specified in the program. Section 2025 of The Treasury Financial Manual –Volume 1,
Part 6-Chapter 2000, states that advances to a recipient organization will be limited to the
minimum amounts necessary for immediate disbursement needs and will be timed to be in
accord only with the actual immediate cash requirements of the recipient organization in
carrying out the purpose of an approved program or project. The timing and amount of cash
advances will be as close as is administratively feasible to actual disbursements by the
recipient organization.

Best business practice defines immediate cash needs as money used for the purpose of
carrying out the Compact’s approved programs within a thirty day period. Also, when funds
are drawn from Treasury before it is needed, or in excess of current needs, the government
loses the use of the funds.

Cause:

Although, MCC’s management has changed the advance issuance and monitoring policies
and procedures, several aspects of advance monitoring have not been effectively
implemented. The review of the advance requests related to immediate cash needs and
outstanding advances currently performed is inadequate.

Effect:

The lack of effective advance monitoring has lead to excess cash on hand and increasing
amounts of interest remitted from FY 2006 ($304,000) to FY 2007 ($1,624,762). Not using
the FIFO method to liquidate the advances distorts the aging of outstanding advances and
provides inaccuracies in the data.

Recommendation # 07-01:

We recommend that MCC management:

    (1) Implement a policy that truly reduces o	 utstanding advances based on the FIFO
        method;
    (2) Implement the common payment system for all MCAs of a more aggressive timeline;
    (3) Make payments in accordance with the monthly schedule and if a payment is held
        consider the need for it to be disbursed at all; and
    (4) Management should ensure that there is a more rigorous review of advance requests
        including an assessment of outstanding advances.



                                       Page 6 of 40
MCC Lacks Written Policies and Procedures Related to Financial Reporting
Accountability and Document Control



Condition:

In performing our analysis of compact expenses and advances, we requested supporting
documentation of approved disbursement requests and final quarterly financial reports (QFR)
by country for FY 2007. MCC’s Department of Administration and Finance was hampered in
addressing our request in a timely manner because of the lack of a centralized data/document
repository. Also, MCC does not have adequate version control over the documents to ensure
that the final documents are maintained in a manner that is accessible to all MCC employees
requiring information.

During FY 2007, MCC disbursed over $82 million to compact countries who in turn reported
approximately $72 million in expenses on their quarterly reports. The disbursement requests
and quarterly reports are essential to ensuring that expenses and advances are accurately
reported in the proper period. MCC has policies and procedures for processing and clearing
the disbursement requests and quarterly financial reports that are received from the MCAs.
The MCA is required to submit the QFR by the 10th day of the third month of the quarter.
The remaining 20 days of the month are used by MCC to process and clear the reports
through various MCC departments including the country teams, legal, Fiscal Accountability,
and Department of Administration and Finance. However, MCC does not have written
policies and procedures related to the non-receipt of the QFR and identification of the
accountable person(s) for ensuring compliance and notification.

MCC has decided to invest in an enterprise information system that will serve as a central
repository for the documentation related to the various countries supported by the MCC. The
projected implementation of the system is the third quarter of FY 2008.

Criteria:

The GAO Standards for Internal Control in the Federal Government states that internal
control and all transactions and other significant events need to be clearly documented and
the documentation should be readily available for examination. Also, information should be
recorded and communicated to management and others within the entity who need it and in a
form and within a timeframe that enables them to carry out their internal control and other
responsibilities.

OMB Circular A-127 “Policies and Standards for Financial Management Systems” states
that financial management in the Federal government requires accountability of financial and



                                       Page 7 of 40
program managers for financial results of actions taken, control over the Federal
government's financial resources and protection of Federal assets. To enable these
requirements to be met, financial management systems must be in place to process and
record financial events effectively and efficiently, and to provide complete, timely, reliable
and consistent information for decision makers and the public.

Additionally, management and employees should establish and maintain an environment
throughout the organization that sets a positive and supportive attitude toward internal
control and conscientious management. A positive control environment is the foundation for
all other standards. It provides discipline and structure as well as the climate which
influences the quality of internal controls.


Cause:

The country teams and specifically, the program officer, are responsible for ensuring that
quarterly financial reports are received from each country in accordance with the timeline
established. However, the written roles and responsibilities of the position and operational
area do not include the accountability for these reports and provision for a centralized
repository. Also, MCC has not established document retention standards that include
document versioning controls. Additionally, MCC believes that because the agreements
require the submission of the reports and funds cannot be disbursed to the MCA without
current reports on file, the possibility of nonsubmission is nonexistent. However, if the MCA
has sufficient funds on hand and thus does not require a disbursement, the incentive to
provide timely reporting decreases.

Effect:

If compact expenses are not recorded timely and accurately based upon approved
documentation, the MCC financial reporting and financial statements will be inaccurate and
MCC management’s ability to rely on the financial statements to make informed decisions
will be impaired. As the number of compact countries and amounts of funds disbursed
increases, the ability to maintain documentation and report accurately and timely becomes
increasingly more important to the effective and efficient running of MCC operations.

Also, operating efficiency is reduced because the lack of centralized records causes people to
keep their own set of records because they can not rely on information being available when
needed. Specifically, it has required the Department of Administration and Finance to
expend additional efforts to track down the required reports for recording in the accounting
system and providing to the auditors. The lack of version control and central repository also
affects other reports and documentation required from the various countries including
performance reports, monitoring and evaluations plans, etc. Currently, the 9 compacts that
are in force require 4 QFRs, at least 4 disbursement requests, and 2 performance reports on
an annual basis. Also, countries receiving Compact Implementation Funds (CIF) and 609g
funds required to submit quarterly QFRs. Additionally, there are untold draft versions of
these same reports. If you multiply these reports by the additional countries that will be



                                        Page 8 of 40
reporting in the future, the proper controls over documentation become increasingly critical
to effective data management.

Recommendation # 07-02:

We recommend that MCC management:

    (1) Formally document the MCC accountability for ensuring MCA compliance with the
        reporting provisions;
    (2) Implement document retention policies that include standards for version control and
        a central repository for documents that are used by multiple MCC units; and
    (3) Continue with the planned implementation of the enterprise information system and
        ensure that information is validated prior to inclusion in the new system.
The status of prior year’s findings is provided in Appendix A. Management’s response in its
entirety is included in Appendix C.

As required by OMB Bulletin No. 07-04, with respect to internal controls related to
performance measures determined by management to be key and reported in the
Management’s Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions. Our
procedures were not designed to provide assurance on internal control over performance
measures and, accordingly, we do not provide an opinion thereon.


COMPLIANCE WITH LAWS AND REGULATIONS

MCC’s management is responsible for complying with laws and regulations applicable to
MCC. As part of obtaining reasonable assurance that MCC’s balance sheet is free of
material misstatements, we performed tests of its compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations
specified in OMB Bulletin No. 07-04, including the requirements referred to in the FFMIA.
We limited our tests of compliance to these provisions and we did not test compliance with
all laws, regulations, contracts, and agreements applicable to MCC. Providing an opinion on
compliance with laws, regulations, contracts, and grant agreements was not an objective of
our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether MCC’s
financial management systems substantially comply with: (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level. To meet this requirement, we
relied on the results of a SAS 70 review of the Department of Interior’s Oracle Federal
Financial System performed by an Independent Audit Firm. The results of that review have
been presented to MCC in a separate report. Providing an opinion on compliance with those
provisions was not, however, an objective of our audit and, accordingly, we do not express
such an opinion.



                                       Page 9 of 40
The results of our tests disclosed that the Corporation did not fully comply with the FFMIA,
which is required to be reported under Government Auditing Standards or OMB Bulletin No.
06-03.

Under FFMIA, we are required to report whether the Corporation’s financial management
systems substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed two instances of noncompliance with laws and regulations.



MATERIAL NONCOMPLIANCE

MCC Does Not Fully Comply With The Federal Financial Management Improvement Act

Condition:

Millennium Challenge Corporation (MCC) systems do not comply with the Federal Financial
Management Improvement Act (FFMIA). The FFMIA requires an integrated financial
management system. MCC does not have an integrated financial management system. MCC
has multiple incompatible systems that cannot exchange data electronically, i.e. E-Travel and
Federal Personnel/Payroll System (FPPS).        The entry of the travel expenses and
disbursements must be done manually. The entry of obligations and commitments requires a
process of manual entry into Oracle Federal Financial (OFF). The payroll expenses and
disbursements must be uploaded into OFF from FPPS.

During FY 2007, the Department of Accounting and Finance (A&F) traveled to NBC’s
Headquarters to perform testing of the interface between E-travel and OFF. A&F tested the
interface based on 17 different employee travel scenarios, and noted that only five standard
scenarios processed through both E-travel and OFF successfully.

Criteria:

The FFMIA requires MCC to implement and maintain a financial management system that
complies substantially with Federal requirements for an integrated financial management
system.

Cause:

The MCC does not have its own financial system. The Corporation has contracted with NBC
to provide accounting and IT services including usage of its OFF application. The MCC is
required by government regulations to use Federal Centers of Excellence of which NBC is



                                       Page 10 of 40
one. According to MCC officials the Corporation has been directed to use the systems
available through NBC. MCC believes that in fiscal year 2007 it used the only options
available. NBC is working with MCC to provide enhancement to the system to
accommodate MCC needs within the context of the OMB requirements for Centers of
Excellence.

Effect:

The financial systems may not provide users with complete, accurate, timely financial
information needed for decision-making purposes because of the inefficiencies caused by the
manual processes.


Recommendation # 07-03:

We recommend that management continue to assess the automated options available to
handle MCC operations and develop short range and long range plans for the implementation
of the most appropriate information technology structure to address electronic integration of
at least the payroll, procurement and travel functions and systems to increase the efficiencies
and effectiveness of the processing of financial transactions; and decrease the risk of errors.


MCC Does Not Fully Comply With The Federal Information Security Management Act
(FISMA)
An OIG audit identified significant non-compliance with FISMA requirements. Also, MCC
engaged an outside expert to perform an independent security audit. MCC acknowledged that
it had not met the majority of the FISMA requirements and proposed a timetable for
compliance.

We are reporting this deficiency as required by the guidance issued by the Office of
Management and Budget. However, because this deficiency was addressed in a prior OIG
audit report, we are not making any recommendations in this report.


DISTRIBUTION

This audit was performed pursuant to the Government Corporation Control Act, OMB
Circular A-136, and is intended solely for the information and use of the United States
Congress, the President, the Director of the Office of Management and Budget, Comptroller
General of the United States, the Corporation and its Inspector General, and is not intended
to be, and should not be, used by anyone other than these specific parties.



October 23, 2007
Washington, D.C.


                                        Page 11 of 40
                                                                             Appendix A



STATUS OF PRIOR YEAR FINDINGS

MCC Does Not Fully Comply with The Federal Information Security Management Act
(FISMA)
In a report issued June 2005, an OIG audit identified significant non-compliance with
FISMA requirements. Subsequently, MCC completed its FISMA report to OMB as of
September 30, 2005, where it acknowledged that it had not met the majority of the FISMA
requirements and proposed a timetable for compliance.

We are reporting this deficiency, as required by the guidance issued by the Office of
Management and Budget. However, because this deficiency was addressed in a prior OIG
audit report, we are not making any recommendation in this report.

The OIG continues to report significant noncompliances with FISMA requirements in fiscal
year 2006 and 2007.


MCC’s Policies and Procedures Were Not Always Complete and Consistent (material
weakness)

During fiscal year (FY) 2006, the Millennium Challenge Corporation (MCC) used various
processes to address the financial aspects of its operations. These processes evolved during
the year as the organization grew in both number of personnel and span of operations.
However, during this growth, the development and implementation of final written policies
and procedures to guide MCC’s streamlined operational structure was not adequately
addressed. During the fiscal year, MCC lacked final written policies and procedures.
Written policies and procedures must be in place to ensure operational efficiencies, risk
reduction, and consistent application. Several policies and procedures, i.e. advances, budget,
and accruals, remained in draft form, throughout the year. Additionally, several procedures
do not address the responsible positions at the various control levels for the processing of
data/data entry functions, or submission and approval levels and procedures in the areas of
fixed assets and the open obligations review required revision.

While the current Department of Administration and Finance (A&F) management team has
emphasized the preparation and issuance of a comprehensive financial management policies
and procedures (FMPP) manual, as of the end of the FY, such a manual was being drafted.
MCC has hired contractors to assist in the production of the FMPP manual by December 31,
2006.

Recommendation #06-01:

We recommend that Millennium Challenge Corporation’s Department of Administration and
Finance complete the Financial Management Policies and Procedures (FMPP) manual and
implement the written policies and procedures for all areas that result in a financial event.



                                      Page 12 of 40
                                                                          Appendix A




Status:



The Department of Administration and Finance completed the FMPP manual in March 2007.
It was implemented and also updated in August 2007.




MCC Policies for Disbursing Advances to Grantees Do Not Accommodate Effective Cash
Management (material weakness and noncompliance)



Condition:

MCC entered into various compacts and provided several advances during fiscal year 2006.
MCC personnel indicated that monthly disbursements were made based upon the quarterly
request. However, we noted that for most Millennium Challenge Authorities (MCAs), MCC
disbursed funds on a quarterly basis based upon the disbursement request, rather than
monthly. We noted that several disbursements were not used within 30 days nor the quarter.

                                                        Projected        Date when
                                                      Cash Balance    disbursement was
                     Date of           Amount of      at September       completely
 Country          Disbursement       Disbursement        30, 2006         expended
Madagascar     July 28, 2005         $ 2,500,924     -               March 30, 2006
               December 13, 2005     $ 1,755,506     -               June 30, 2006
               May 31, 2006          $ 5,391,665     $2,311,342      Not expected to be
                                                                     expended by
                                                                     September 30, 2006

Georgia        May 2, 2006        $ 3,603,404        $221,594        Not expected to be
               September 15, 2006 $6,509,706         6,509,706       expended by
                                                                     September 30, 2006

Honduras       February 28, 2006  $ 1,646,545        $138,840        Not expected to be
               September 29, 2006 $1,369,849         $1,369,849      expended by
                                                                     September 30, 2006

Cape Verde     February 1, 2006      $ 7,526,864     $3,913,663      Not expected to be
                                                                     expended by


                                    Page 13 of 40
                                                                            Appendix A


                                                         Projected         Date when
                                                       Cash Balance     disbursement was
                      Date of          Amount of       at September        completely
  Country          Disbursement       Disbursement        30, 2006          expended
                                                                       September 30, 2006

Vanuatu        June 30, 2006          $ 1,127,055      $1,023,658      Not expected to be
               August 9, 2006         $ 219,504        $219,504        expended by
               September 6, 2006      $ 111,688        $111,688        September 30, 2006
               September 18, 2006     $ 116,377        $116,377

Nicaragua      June 30, 2006          $ 1,483,399      433,889         Not expected to be
               August 28, 2006        $ 378,550        378,550         expended by
               August 31, 2006        $ 289,110        289,110         September 30, 2006

The Department of the Treasury’s Financial Management Service publications did not
envision the inclusion of sovereign governments; however, in the analysis of cash
management, we used the Treasury Financial Manual (TFM) as a valuable source of sound
business practices. The TFM is the Department of the Treasury's official publication for
financial accounting and reporting of all receipts and disbursements of the Federal
Government. The purpose of the TFM is to provide policies, procedures, and instructions for
Federal departments and agencies to follow in carrying out their fiscal responsibilities.

Also, through various OMB Circulars, OMB has attempted to address the need for advances
to cover immediate cash needs or timely disbursements of an entity for direct program costs
for carrying out the purpose of the approved program or project. Thus, funds paid to a
grantee are not to be held, but are to be promptly applied to the grant purpose. Although the
timeframe for immediate cash needs has not been clearly defined by OMB, the general rules
employed by various Federal agencies are 30 days for non-governmental entities as outlined
in the TFM. Based upon this definition, MCC has provided Federal funds in excess of
immediate cash needs.

Recommendation # 06-02:

We recommend that Millennium Challenge Corporation:

   1) Develop and implement policies and procedures to ensure that the payment schedules
       and other agreements entered into with grantees are reflective of the U.S. Treasury
       requirements concerning advances and immediate cash needs.
   2) Develop and implement policies and procedures to ensure that all disbursement
       requests from the accountable entity of the recipient countries follow the official
       format that documents the cash requirements for each month of the quarterly period.
   3)	 Make and document all payments to the recipient countries on a monthly basis
       instead of a quarterly basis.




                                     Page 14 of 40
                                                                            Appendix A

   4)	 Establish and implement policies and procedures to ensure that any custodial
       liabilities, e.g. interest owed to the U.S. government resulting from the grantee
       advances, are properly recorded.

Status:

The Millennium Challenge Corporation developed and implemented policies and procedures
reflective of the GAO policy based on an evaluation of what was needed to meet grant
purposes in any given quarter, through the funds will be released in tranches on a monthly
schedule. The MCAs submit quarterly financial reports that include disbursement requests.
The disbursement requests provide a monthly schedule of cash needs that NBC and the
Division of Finance follow to issue the disbursements. DF and The National Business Center
(NBC) have implemented controls and review procedures to ensure quarterly disbursement
requests and subsequent monthly disbursements comply with policies and procedures per the
FMPP. Disbursements are recorded when issued and expenses are recorded on a quarterly
basis based upon the financial reports received from the MCA. The interest receipts are
recorded in the general ledger by NBC.



MCC Does Not Have a Property Management System (material weakness)



We noted that MCC reported $5,656,567 in property as of June 30, 2006; however, they were
unable to provide detailed records to support the amount reported. The MCC does not have a
property management system that provides detail information on original cost, date of
purchase, location, useful life, depreciation, and accumulated depreciation.

For the year end financial statements, sufficient analysis was performed to ensure consistent
application of the capitalization policy and to determine an appropriate measure of
depreciation expense to ensure that fixed assets would be fairly stated.

Recommendation #06-03:

We recommend that Millennium Challenge Corporation develop and maintain appropriate
fixed asset records to ensure accurate reporting and physical control.

Status:

MCC implemented new property policies and procedures in FY 2007. MCC with the
assistance of a contractor conducted an inventory and reconciled it to the general ledger.
Also, MCC established fixed asset records and computed and recorded depreciation expenses
during the year.




                                     Page 15 of 40
                                                                             Appendix A


MCC Did Not Properly Record Compact Expenses During the Fiscal Year (material
weakness)



As a result of our review of the third quarter financial statements, we noted that MCC did not
report any compact program costs. Although MCC had received disbursement requests that
can be used to post the expenses incurred, nothing was recorded. According to the compact
and disbursement agreement, each MCA is required to submit quarterly disbursement
requests that include the expenses incurred to date. These requests are due regardless of the
need for funding. The requests should provide the following:

   •   Previous quarter advances;
   •   Previous quarter disbursements;
   •   Estimated expenses; and
   •   Next quarter’s advance request.

For the year end financial statements, MCC recorded compact expenses of $8,493,394.
Additional analysis was performed utilizing the disbursement requests to increase expenses
recorded and to ensure that advances and compact expenses were fairly stated.

Recommendation #06-04:

We recommend that Millennium Challenge Corporation’s management:

   (1) Require that the final quarterly request received from the accountable entity of the
       recipient countries be made available to the Department of Administration and
       Finance and the Fiscal Accountability Office.

   (2) Develop and implement policies and procedures that ensure compact expenses are
       properly and accurately recorded and reported on a quarterly basis

   (3) Implement written procedures requiring that appropriate and timely follow-up
       measures are performed and are recorded for historical reference on incomplete,
       outstanding, or late disbursement requests.

   (4) Develop and implement policies and procedures that require the Department of
       Administration and Finance to perform a thorough review of the financial statements
       to ensure that costs are not omitted.



Status:




                                      Page 16 of 40
                                                                               Appendix A

The Department of Administration and Finance in conjunction with the Fiscal Accountability
Office developed and implemented revisions to the quarterly financial reports to streamline
the process for recording compact expenses and related accruals. The current process
requires that quarterly reports and disbursement requests are cleared by the Department of
Administration and Finance and the Fiscal Accountability Office thereby ensuring that they
are received. MCC issued policies and procedures for tracking and follow-up on outstanding
quarterly disbursement requests and financial reports. Also, procedures for the review of
quarterly and annual financial statements were developed and implemented by the Division
of Finance.




MCC’s Chief Financial Officer Was Not an Integral Part of the Compact/Grant Processes
(material weakness)


Based on interviews and observations, we noted that MCC’s Division of Finance was not
integrally involved in the compact/grant processes to ensure that the financial aspects are
addressed, recorded and reported in their proper sequence and appropriate timing. The Chief
Financial Officer or his designees should be integrally involved in all MCC operations that
result in a financial transaction. The CFO should be integrally involved in the:
        (1) establishment of the compact amount to	 ensure that there is sufficient
             appropriations available,
        (2) development of grant policies and procedures to ensure that they are in
             compliance with Federal government laws and regulations and to ensure that
             sufficient financial information is provided to MCC to accomplish its
             responsibilities,
        (3) review of compacts in order to initiate accounting transactions in the system and
             budget transactions with OMB, and
        (4) establishment of the reporting structure to ensure that financial information is
             provided timely and in the format necessary for required financial reporting.

Recommendation #06-05:


We recommend that Millennium Challenge Corporation’s management revise their policies
and procedures to invest the Office of the Chief Financial Officer with the level of
responsibility, role, and all levels of authority established by the Chief Financial Officer Act.




Status:


                                       Page 17 of 40
                                                                              Appendix A




The Chief Executive Officer sent a memorandum to MCC’s executive team iterating CFO’s
responsibilities for the full spectrum of the Corporation’s financial management activities.
The FMPP manual reiterates the full spectrum of the CFO’s responsibilities also.




MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective and
Efficient Management of Travel (reportable condition)



MCC follows the Federal Travel Regulations and has an overall policy related to travel.
However, prior to February 2006, MCC was using blanket travel authorizations (TA) to serve
as an approval for employee travel. Once MCC approved the blanket TA, it was submitted to
National Business Center (NBC) to post an obligation within Oracle. After February, MCC
modified the travel policy that instituted the individual TA’s that outlined the specific
purpose of the employee’s travel. NBC no longer posts travel obligations in advance in
Oracle but obligates and pays the travel vouchers, simultaneously.

Similar to FY 2005, MCC requires all employees to post their travel expenses online in E-
Travel. Although the travel voucher process is electronic, E-Travel does not interface with
Oracle Federal Financials. Therefore, an NBC accounting technician must manually enter
each voucher. During our travel testing, we noted twenty-six instances totaling $97,802 for
which employees’ receipts were not available. We also noted the following:

   1.	 Eleven of 115 (10%) travel vouchers totaling $869 exceeded per diem rates;
   2.	 Six of 115 (5%) vouchers equaling $557 consisted of expenses in excess of $75 and
       were not supported; and
   3.	 Four of 115 (3%) vouchers totaling $35,663 were not approved by the travel manager
       within E-Travel.

MCC enhanced its travel policy in August 2006. MCC management changed the
Corporation’s supporting documentation requirements to require travelers to scan into the E-
travel system and electronically attach to the pertinent travel vouchers receipts for claimed
expenses of $75 or more. Division of Finance personnel are responsible for reviewing
submitted vouchers to ascertain that required receipts are electronically attached to travelers’
vouchers. Travelers who do not scan and attach their required receipts to vouchers are
contacted by Division of Finance staff to obtain “missing” receipts.

Recommendation #06-06:




                                       Page 18 of 40
                                                                              Appendix A

We recommend that Millennium Challenge Corporation’s management develop and
implement controls to reject travel expense reimbursement requests that exceed the allowable
country per diem unless additional electronic authorization is provided.



Status:


The Deputy CFO instructed the DF’s travel management staff to not approve any claimed
travel expenses that exceed established limitations as defined by the Federal Travel
Regulations (FTR) and to reject travelers’ claims that exceed per diem limits. The travelers
were provided feedback on travel voucher errors and a traveler’s responsible
manager/supervisor was apprised of claimed expenses that are not in compliance with per
diem (actual costs) requirements. The manager/supervisor explicitly approved such expenses.

DF travel management staff underwent refresher FTR training and provided training on using
the E-Travel system to MCC employees to better orient and guide them in properly preparing
travel authorizations and vouchers.


MCC Did Not Fully Comply with FFMIA and GPRA

Millennium Challenge Corporation has not fully complied with the following laws and
regulations:

   •   Government Performance and Results Act (GPRA)

   •   Federal Financial Management Improvement Act (FFMIA)

We noted that the agency performance plans provided to us did not fully comply with GPRA
requirements, for example: human, capital and other resources needed to achieve
performance goals were not quantified as required. Also, agency performance goals were not
written in a manner that could be quantified in several instances and milestones were not
included. Therefore, we could not directly link measurement of agency performance goals
with the overall strategic plan. In addition, baseline data to be used as performance indicator
measurement thresholds were not provided for some indicators.



The FFMIA requires an integrated financial management system. MCC does not have an
integrated financial management system. When MCC decided to outsource its accounting
operations, MCC selected NBC from the available Federal Centers of Excellence as the best
choice to meet its needs. In order to address the needs of MCC, multiple systems, i.e. E-
Travel, procurement, and Federal Personnel and Payroll System (FPPS), are used, but these
systems cannot exchange data electronically. The entry of the travel expenses and


                                      Page 19 of 40
                                                                            Appendix A

disbursements must be done manually. The entry of obligations and commitments requires a
process of emails, scanning and manual entry into Oracle Federal Financial (OFF) System
application. The payroll expenses and disbursements must be uploaded into OFF from FPPS.



Additionally, we obtained and reviewed the Financial Management Controls and Assertion
letter and noted the following assertion, “During FY 2006, NBC’s sytems were not in
substantial compliance with FFMIA requirements. In its assurance statement as of June 30,
2006, NBC asserted that ‘were in substantial non-compliance with FFMIA requirements’.”
Subsequently, NBC instituted several corrective actions to address the issues raised and were
in substantial compliance by September 30, 2006, per their representation.

Recommendation #06-07:

We recommend that MCC management:

   (1) Develop performance goal templates and follow-up training to ensure that
       Government Performance and Results Act (GPRA) requirements are adequately
       addressed and consistent. We also recommend that baseline data be finalized or
       performance indicators reviewed and amended such that they can be measured
       against obtainable data.

   (2) Assess the automated options available to handle MCC operations and develop short
       range and long range plans for the implementation of the most appropriate
       information technology structure to address electronic integration of at least the
       payroll, procurement and travel functions and systems to increase the efficiencies and
       effectiveness of the processing of financial transactions; and decrease the risk of
       errors.

Status:

The Department of Administration and Finance managed a performance working group,
representing all departments to revise the MCC corporate performance plan for FY 2007, and
acquired the services of a contractor to assist in drafting the plan, setting baselines and
targets, and developing procedures to ensure that departmental and individual performance
plans are aligned with the corporate plan. MCC was able to complete the performance plan
which expanded the Framework, made key decisions on the baseline, performance measures,
reliable data sources, and the vetting process to be employed by each department. The
departmental plans are expected to be completed in October and the individual employee
plans in December 2007.

In FY 2007 MCC has assessed various automated options related to the integration of its
various systems and discussed options with their service provider. They have determined
system requirements and performed a gap analysis. However, integration of the various
systems      requires     additional    analysis,      planning     and      assessment.



                                     Page 20 of 40
                                                                      Appendix B



Management         We received and evaluated MCC’s management comments to the
Comments and Our   recommendations made in this report. We considered their
Evaluation         comments to be generally responsive except for specific exceptions
                   detailed below. Management comments have been included in their
                   entirety in Appendix C.

                   In its response, MCC’s management stated that it recognizes the
                   importance of accountability, effective stewardship, and public
                   disclosure related to the resources entrusted to it, and that their
                   goal is to achieve and maintain excellence in financial
                   management, financial reporting and internal control systems.
                   Further, MCC’s management commented that it will implement
                   the recommendations as soon as possible to strengthen their
                   systems of internal controls and lend further credibility to their
                   financial statements and overall financial operations. MCC’s
                   management went on to address each recommendation. MCC’s
                   management also recognized and thanked the OIG and Williams,
                   Adley & Company, LLP for working closely with them during the
                   audit process.

                   Based on MCC’s comments, we consider that a management
                   decision has been reached on recommendation 2 provided in this
                   report but not on recommendations 1 and 3. These recommendations
                   do not provide defined timelines for the corrective action
                   implementation. Also, the corrective action for recommendation 1.4
                   requires additional details to ensure that the recommendations are
                   appropriately addressed. MCC should report to the OIG when
                   management decision has been reached on the four recommendations
                   and when final action has been taken on the recommendations. The
                   following is a brief summary of MCC’s management comments on
                   the three recommendations included in this report and our evaluation
                   of those comments.

                   Recommendation No. 1

                   MCC accepts the recommendation. With regard to
                   Recommendation # 1, MCC’s current Financial Management
                   Polices and Procedures do not contain any requirement to liquidate
                   advances on a First-in, First-out (FIFO) basis; however we agree
                   that FIFO would provide for improved reporting of outstanding
                   advances. MCC will work with the National Business Center
                   (NBC), its financial services provider, to ensure that all prior and
                   future advances are liquidated on a FIFO basis.




                              Page 21 of 40
                                                   Appendix B

MCC implemented the Common Payment System (CPS) in Mali in
May 2007. All countries signing compacts after that date will
utilize CPS. The CPS provides for payment of MCA expenses
through the U.S. Treasury based upon presentation of a valid
approved invoice. CPS supports sound cash management by
eliminating the current practice of cash advances to MCA compact
countries

MCC will establish a timeline for converting to CPS countries that
entered into Compacts prior to May 2007. In the interim, MCC
intends to follow sound cash management practices, and will
disburse funds consistent with the GAO policy and based on the
best information available and grant requirements in any given
quarter. MCC will continue to release the funds in tranches
following a monthly schedule.

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because the response does not
address recommendation 1.4; and does not provide an
implementation date.

Recommendation No. 2

MCC accepts the recommendation. In conjunction with the
reorganization of the Operations Department, MCC will be
reviewing existing polices and procedures related to compact
implementation. This will include documenting the roles and
responsibilities for ensuring receipt of required reports from
partner countries.

MCC has submitted a comprehensive Records Disposition
(retention) schedule to the National Archives and Records
Association for review and approval within the next six to nine
months. The issue of version control and a centralized repository is
being addressed as part of development of the Enterprise
Architecture and the implementation of the Business Intelligence
and Data Storage (BIDS). A key component of BIDS will be the
Administrative Data Store (ADS). The ADS is a data warehouse
that will include MCA Compact data, MCA Progress Reports, and
records of MCC reviews, approvals and decisions captured through
an automated workflow process. The expected implementation
date for this component of the BIDS is June 2008. In the interim,
MCC will establish procedures to address the version control issue
using existing tools.




           Page 22 of 40
                                                  Appendix B

Auditor Evaluation: We conclude that management has adequately
addressed this issue.

Recommendation No. 3

MCC accepts the recommendation. The Department of
Administration and Finance (A&F) will continue to work to the
National Business Center (NBC) on the interface between Etravel
and Oracle to resolve the issues noted during initial testing. MCC
will be changing to a new government credit card provider in FY
2008 for both travel and purchase card transactions. MCC is
currently considering either JP Morgan Chase or Citibank, both of
which have a fully tested and integrated interface with the Oracle
Federal Financial System (OFFS). Regarding the payroll
integration, the NBC has indicated its business plan does not
include the integration of FPPS with OFFS, outside of the labor
interface already provided.

During FY 2007, A&F made substantial progress on reviewing its
current financial systems environment and developing alternatives
for a fully integrated system to meet the requirements of the
FFMIA. A&F has established system requirements, performed a
gap analysis based on its current environment, and developed cost
alternatives to close the exiting gaps. A&F will also work with the
Office of Management and Budget (OMB) to find the best
resolution for this condition whether with the NBC, or with some
other federal or private center of excellence.

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because no defined timetable has
been stated for the corrective action.




           Page 23 of 40
November 2, 2007



TO: 	          John Phee
               Assistant Inspector General

FROM:          M
               	 ichael Ryan /s/
               Vice President, Administration and Finance

SUBJECT: 	     Management Response to Draft Independent Auditor's
               Report on MCC's Financial Statements for Fiscal Years
               Ended September 30, 2007 and 2006, Respectively


We have received the subject draft report and are pleased to note that the independent
auditors, Williams, Adley and Company, LLP, are issuing an unqualified opinion on our
principal financial statements, namely the Statements of:

        Financial Position;

        Net Costs; 

        Changes in Financial Position; and 

        Budgetary Resources. 


The auditor's unqualified opinion is being issued despite material internal control weaknesses
and noncompliance with selected laws and regulation that have been identified.

The Millennium Challenge Corporation's (MCC) management recognizes the importance of
accountability, effective stewardship and public disclosure related to the resources entrusted
to it. Our goal is to achieve and maintain excellence in our financial management, financial
reporting and internal control systems. Accordingly, we will implement the recommendations
as soon as possible to strengthen our systems of internal control and lend further credibility
to our financial statements and overall financial operations.

We wish to recognize and thank you, your team, and Williams, Adley and Company for
working closely with us during the audit process. Any questions may be addressed to Mr.
Dennis Nolan, Deputy Chief Financial Officer, or to me.

Following are our management decisions and responses to Williams Adley's audit
recommendations.




                                      Page 24 of 40
                                                                                Appendix C


Material Weakness 1: MCC did not sufficiently execute its monitoring functions related to
advances.

Recommendations: Williams, Adley and Company recommend that the
Millennium Challenge Corporation’s management:

     1.1. 	Implement a policy that reduces outstanding advances based on the FIFO method.

     1.2. 	 Implement the common payment system for all MCAs on a more aggressive
           timeline.

     1.3. 	 Make payments in accordance with the monthly schedule and if a payment is held
            consider the need for it to be disbursed at all.

     1.4. 	 Ensure that there is a more rigorous review of advance requests including an
           assessment of outstanding advances.

Management         Decision: MCC accepts the recommendation. With regard to
Recommendation # 1, MCC’s current Financial Management Polices and Procedures do not
contain any requirement to liquidate advances on a First-in, First-out (FIFO) basis; however
we agree that FIFO would provide for improved reporting of outstanding advances. MCC
will work with the National Business Center (NBC), its financial services provider, to ensure
that all prior and future advances are liquidated on a FIFO basis.

MCC implemented the Common Payment System (CPS) in Mali in May 2007. All countries
signing compacts after that date will utilize CPS. The CPS provides for payment of MCA
expenses through the U.S. Treasury based upon presentation of a valid approved invoice.
CPS supports sound cash management by eliminating the current practice of cash advances
to MCA compact countries

MCC will establish a timeline for converting to CPS countries that entered into Compacts
prior to May 2007. In the interim, MCC intends to follow sound cash management practices,
and will disburse funds consistent with the GAO policy and based on the best information
available and grant requirements in any given quarter. MCC will continue to release the
funds in tranches following a monthly schedule.

Material Weakness 2: MCC lacks written policies and procedures related to financial
reporting accountability and document control.

Recommendations: Williams, Adley and Company recommends that the Millennium
Challenge Corporation management:

     2.1. 	 Formally document the MCC accountability for ensuring MCA compliance with
            the reporting provisions.




                                     Page 25 of 40
                                                                                  Appendix C

     2.2. 	 Implement document retention policies that include standards for version control
            and a central repository for documents that are used by multiple MCC units.

     2.3. 	 Continue with the planned implementation of the BIDS project and ensure that
            information is validated prior to inclusion in the new system.

Management Decision: MCC accepts the recommendation. In conjunction with the
reorganization of the Operations Department, MCC will be reviewing existing polices and
procedures related to compact implementation. This will include documenting the roles and
responsibilities for ensuring receipt of required reports from partner countries.

MCC has submitted a comprehensive Records Disposition (retention) schedule to the
National Archives and Records Association for review and approval within the next six to
nine months. The issue of version control and a centralized repository is being addressed as
part of development of the Enterprise Architecture and the implementation of the Business
Intelligence and Data Storage (BIDS). A key component of BIDS will be the Administrative
Data Store (ADS). The ADS is a data warehouse that will include MCA Compact data, MCA
Progress Reports, and records of MCC reviews, approvals and decisions captured through an
automated workflow process. The expected implementation date for this component of the
BIDS is June 2008. In the interim, MCC will establish procedures to address the version
control issue using existing tools.

                                    **********

Material Noncompliance 1: MCC does not fully comply with the Federal Financial
Management Improvement Act (FFMIA).

Recommendation: Williams, Adley and Company recommend that management continue to
assess the automated options available to handle the Millennium Challenge Corporation
operations and develop short range and long range plans for the implementation of the most
appropriate information technology structure to address electronic integration of at least the
payroll, procurement and travel functions and systems to increase the efficiencies and
effectiveness of the processing of financial transactions; and decrease the risk of errors.

Management Decision: MCC accepts the recommendation. The Department of
Administration and Finance (A&F) will continue to work to the National Business Center
(NBC) on the interface between Etravel and Oracle to resolve the issues noted during initial
testing. MCC will be changing to a new government credit card provider in FY 2008 for both
travel and purchase card transactions. MCC is currently considering either JP Morgan Chase
or Citibank, both of which have a fully tested and integrated interface with the Oracle Federal
Financial System (OFFS). Regarding the payroll integration, the NBC has indicated its
business plan does not include the integration of FPPS with OFFS, outside of the labor
interface already provided.

During FY 2007, A&F made substantial progress on reviewing its current financial systems
environment and developing alternatives for a fully integrated system to meet the



                                      Page 26 of 40
                                                                                  Appendix C

requirements of the FFMIA. A&F has established system requirements, performed a gap
analysis based on its current environment, and developed cost alternatives to close the exiting
gaps. A&F will also work with the Office of Management and Budget (OMB) to find the best
resolution for this condition whether with the NBC, or with some other federal or private
center of excellence.

Material Noncompliance 2: MCC does not comply with the Federal Information Security
Management Act (FISMA). Williams, Adley and Company makes no recommendation(s)
relative to this material noncompliance. This deficiency was identified by the Office of
Inspector General in a prior audit. During FY 2007, MCC management:

    •	 Hired two fulltime FISMA staff;
    •	 Completed an MCC Self Assessment;
    •	 Completed an MCC’s Information System Security Plan (ISSP);
    •	 Completed Quartile scans on MCCnet;
    •	 Approved three additional FISMA team members-Subject Matter Expert,

       Technological Writer and Network Engineer; and 

    •	 Created a new CISSO position with an additional slot, and hired a full-time employee
       who will start in November.




                                      Page 27 of 40
        BALANCE SHEETS

In dollars                                                      FY 2007               FY 2006
Assets
Intra-Governmental
Fund Balance with Treasury (Note 2)                         $5,549,289,597        $4,078,656,972
Accounts Receivable (Note 3)                                        67,798                62,202
Total Intra-Governmental                                     5,549,357,395         4,078,719,174
General Property, Plant, and Equipment(Note 4, Note 5)           7,115,606             4,632,785
Advances (Note 1F,P)                                            32,243,157            18,881,386
Total Assets                                                $5,588,716,158        $4,102,233,345

Liabilities
Intra-Governmental
Other                                                       $    1,457,862        $    2,516,786
Total Intra-Governmental                                         1,457,862             2,516,786
Accounts Payable                                                39,176,698            10,134,698
Other                                                            3,971,886             2,698,070
Total Liabilities                                           $   44,606,446        $   15,349,554
Net Position
Unexpended Appropriations – Other Funds                     $5,536,714,361        $4,082,189,638
Cumulative Results of Operations – Other Funds                   7,395,351             4,694,153
Total Net Position                                          $5,544,109,712        $4,086,883,791
Total Liabilities and Net Position                          $5,588,716,158        $4,102,233,345

                     The notes are an integral part of the financial statements




                                        Page 28 of 40
       STATEMENTS OF BUDGETARY RESOURCES

In dollars                                                            FY 2007           FY2006
Budgetary Resources
Unobligated Balance – Beginning of Period                         $2,671,372,416    $2,053,722,184
Recoveries of Prior Years Obligations                                 15,930,609                 -
Budget Authority:
Appropriations                                                     1,752,300,000     1,770,000,000
Nonexpenditure Transfers, Net, Anticipated and Actual                 (9,415,980)                -
Permanently Not Available (Note 7)                                             -       (17,700,000)
Total Budgetary Resources                                         $4,430,187,045    $3,806,022,184

Status of Budgetary Resources
Obligations Incurred
  Direct                                                          $2,174,044,542    $1,109,535,594
Unobligated Balance Available
 Apportioned                                                       1,516,900,216       877,383,424
Unobligated Balance Not Available                                 $ 739,242,287     $1,819,103,166
Total Status of Budgetary Resources                               $4,430,187,045    $3,806,022,184

Change in Obligated Balance
Obligated Balance, Net – as of October 1, 2005
Unpaid Obligations, Brought Forward, October 1                    $1,408,398,635    $ 272,636,873
Obligations Incurred                                               2,174,044,542     1,109,535,594
Gross Outlays                                                       (278,605,423)     (109,119,072)
Recoveries of Prior Year Unpaid Obligations, Actual                  (15,930,609)                -
Obligated Balance, Net – End of Period
Unpaid obligations                                                $3,287,907,145    $1,273,053,395
Net Outlays
Gross Outlays                                                     $ 278,605,423     $ 109,119,072

                       The notes are an integral part of the financial statements




                                          Page 29 of 40
        STATEMENTS OF NET COSTS

                     Program                                 2007 Total           2006 Total
Program Costs (In dollars)
Compact
Gross Costs (Note 6)                                          $ 81,079,458        $ 16,747,194
Less: Earned Revenue                                                     -                   -
Net Program Costs                                               81,079,458          16,747,194
609 (g) Programs
Gross Costs                                                     17,172,113           5,895,167
Less: Earned Revenue                                                     -                   -
Net Program Costs                                               17,172,113           5,895,167
Threshold Programs
Gross Costs                                                     75,766,215          15,235,063
Less: Earned Revenue                                                     -                   -
Net Program Costs                                               75,766,215          15,235,063
Due Diligence Programs
Gross Costs                                                     32,789,662          15,137,340
Less: Earned Revenue                                                     -                   -
Net Program Costs                                               32,789,662          15,137,340
Audit
Gross Costs                                                      2,865,820            619,714
Less: Earned Revenue                                                     -                  -
Net Program Costs                                                2,865,820            619,714
Administrative
Gross Costs                                                    77,922,457           54,785,827
Less: Earned Revenue                                                    -                    -
Net Program Costs                                              77,922,457           54,785,827
Program Costs – Net of All Programs                          $287,595,725         $108,420,305
Net Costs of Operations                                      $287,595,725         $108,420,305

                     The notes are an integral part of the financial statements




                                       Page 30 of 40
      STATEMENTS OF CHANGES IN NET POSITION


In dollars                                                        FY 2007               FY 2006
Cumulative Results of Operations
Beginning Balances                                            $   4,694,987         $   4,276,833
Adjustments                                                               -                     -
Beginning Balance, as Adjusted                                $   4,694,987         $   4,276,833
Budgetary Financing Sources
Appropriations Used                                           $ 288,359,297         $ 107,689,343
Other Financing Sources
Donations and Forfeitures of Property                         $     123,750         $           -
Imputed Financing                                                 1,813,042             1,148,282
Total Financing Sources                                         290,296,089           108,837,625
Net Cost of Operations                                         (287,595,725)         (108,420,305)
Net Change                                                        2,700,364               417,320
Cumulative Results of Operations                              $ 7,395,351          $    4,694,153

Unexpended Appropriations
Beginning Balance                                           $4,082,189,638         $2,437,546,656
Changes in Accounting Principles                                         -                      -
Beginning Balance, as Adjusted                              $4,082,189,638         $2,437,546,656
Budgetary Financing Sources
Appropriations Received                                     $1,752,300,000         $1,770,000,000
Appropriations Transferred In/Out                                (9,415,980)                    -
Other adjustments (Note 7)                                                -           (17,700,000)
Appropriations Used                                           (288,359,297)          (107,657,018)
Total Budgetary Financing Sources                            1,454,524,723          1,644,642,982
Total Unexpended Appropriations                              5,536,714,361          4,082,189,638
Net Position                                                $5,544,109,712         $4,086,883,791

                      The notes are an integral part of the financial statements




                                        Page 31 of 40
Note 1—Summary of Significant Accounting Policies

   A. Basis of Presentation

      The accompanying principal financial statements have been prepared to report the financial
      position, results of operations and budgetary resources for MCC, as required by Section 613
      of the Millennium Challenge Act of 2003. They have been prepared using MCC’s books and
      records in accordance with MCC accounting policies, the most significant of which are
      summarized in this note. The statements are presented in accordance with the guidance and
      requirements of the recently issued OMB Circular A-136, which incorporates and updates
      Bulletin 01-09, Form and Content of Agency Financial Statements, and the Government
      Management Reform Act of 1994. Fiscal Year 2006 statements, previously prepared in
      accordance with the Government Corporation Control Act (31 U.S.C. §9106), have been
      reformatted and republished for Circular A-136 comparative purposes. Fiscal year 2006
      financial statements have also been restated for comparative purposes to include Threshold
      program balances that were not reflected timely prior to final publication.

      MCC accounting policies follow generally accepted accounting principles for the Federal
      government, as recommended by the Federal Accounting Standards Advisory Board
      (FASAB). The FASAB has been recognized by the American Institute of Certified Public
      Accountants (AICPA) as the official accounting standard set for the Federal government.
      These standards have been agreed to, and published by the Director of OMB, the Secretary of
      the Treasury, and the Comptroller General.

      MCC’s principal financial statements are:

        `   Balance Sheet
        `   Statement of Budgetary Resources
        `   Statement of Net Cost
        `   Statement of Changes in Net Position

      These notes are considered an integral part of the financial statements.

   B. Reporting Entity

      MCC was formed in January 2004 pursuant to the Millennium Challenge Act of 2003 (Public
      Law 108-199). MCC’s mission is to reduce poverty by supporting sustainable, transformative
      economic growth in developing countries that create and maintain sound policy
      environments. The assistance is intended to provide economic growth and the elimination of
      extreme poverty, strengthen good governance, encourage economic freedom, and promote
      investments in people.




                                        Page 32 of 40
C. Budgets and Budgetary Accounting

   MCC’s programs and activities are funded through no-year appropriations. Such funds are
   available for obligation without fiscal year limitation and remain available until expended.
   MCC was provided total appropriations of almost $1.752 billion and $1.770 billion in FY
   2007 and FY 2006, respectively. OMB apportions MCC administrative funds on an annual
   basis pursuant to statutory limitations in MCC’s annual congressional appropriations. In
   addition, MCC receives from OMB a separate apportionment for due diligence funds, which
   MCC uses for compact evaluations and support, compact programs, 609(g) funds, the
   Threshold program, and audit funds. Because of the no-year status of MCC appropriations,
   unobligated administrative, audit, and due diligence funds (apportioned annually) are not
   returned to the Treasury; however, unobligated balances as of September 30 for these three
   categories of funds are transferred to the compact fund category at the beginning of the
   subsequent fiscal year for future use.

D. Basis of Accounting

   Financial transactions are recorded on accrual and budgetary bases in accordance with
   pertinent federal accounting and financial reporting requirements. Under the accrual method
   of accounting, financing sources are recognized when used and expenses are recognized
   when incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   MCC’s compliance with legal constraints and controls over the use of federal funds.

   The accompanying Balance Sheet, Statement of Net Cost, and Statement of Changes in Net
   Position have been prepared on the accrual basis. The Statement of Budgetary Resources has
   been prepared in accordance with budgetary accounting rules.

E. Fund Balance with Treasury

   MCC does not maintain cash in commercial bank accounts. Rather, MCC’s funds are
   maintained in Treasury accounts. The Department of the Treasury processes all cash receipts
   and disbursements for MCC. The Fund Balances with Treasury represent no-year funds,
   which are maintained in appropriated funds that are available to pay current and future
   commitments.

F. Advances to Others

   MCC advances funds to eligible compact and pre-compact countries in order to implement
   compact projects in an MCA country or for federal government inter-agency agreements.
   Funds advanced to compact and pre-compact countries are used to pay legitimate costs and
   expenses incurred by MCC and partner countries. Advances at the end of FY 2007 and FY



                                   Page 33 of 40
   2006 were $32.2 million and $18.9 million, respectively. Of the twenty-one (21) MCC
   outstanding advances, four (4) are greater than 180 days.




G. Accounts Payable

   MCC records as liabilities all amounts due to others as a direct result of transactions or events
   that have occurred. Accounts payable represent amounts due to federal and non-federal
   entities for goods and services received by MCC, but not paid at the end of the accounting
   period. Accounts payable reported at the end of FY 2007 and 2006 were $39.2 and $10.1
   million, respectively. The increase in the Accounts Payable is attributable to an increase from
   $7.6 million in FY 2006 to $28.6 million in FY 2007 for USAID Threshold programs.

H. Actuarial FECA Liability

   The Federal Employees’ Compensation Act (FECA) provides income and medical cost
   protection to covered federal civilian employees injured on the job, employees who have
   incurred a work-related occupational disease, and beneficiaries of employees whose deaths
   are attributable to a job-related injury or occupational disease.

   Claims incurred for benefits for MCC employees under FECA are administered by the
   Department of Labor (DOL) and later billed to MCC. MCC’s actuarial liability for workers’
   compensation includes any costs incurred but unbilled as of year-end, as calculated by DOL,
   and not funded by current appropriations.

   MCC incurred no FECA liabilities during FY 2007 and FY 2006.

I. Accrued Annual Leave

   The value of employees’ unused annual leave at the end of each fiscal quarter is accrued as a
   liability. At the end of each fiscal quarter, the balance in the accrued annual leave account is
   adjusted to reflect current pay rates and leave balances. Annual leave is funded from current
   appropriations. Sick leave and other types of non-vested leave are expensed when used, and
   in accordance with federal requirements no accruals are recorded for unused leave.

J. Net Position

   Net position is composed of unexpended appropriations and cumulative results of operations.
   Unexpended appropriations are funds appropriated by Congress to MCC that are still
   available for expenditure at the end of the fiscal year. Cumulative results of operations
   represent the net differences between financing sources and expenses from MCC’s inception.

K. Financing Sources


                                     Page 34 of 40
   In accordance with Note 1.C, MCC funds its program and operating expenses through no-
   year appropriations. Appropriations are recognized as an accrual-based financing source at
   the time they are used to pay program or administrative expenses, except for expenses to be
   funded by future appropriations.

L. Retirement Benefits

   MCC’s employees participate in either the Civil Service Retirement System (CSRS) or the
   Federal Employees Retirement System (FERS). FERS was established by Public Law 99
   335. Pursuant to this law, most U.S. Government employees hired after December 31, 1983,
   are covered by FERS and Social Security. Federal employees hired prior to January 1, 1984,
   were allowed to elect whether they desired to participate in FERS (with Social Security
   coverage) or remain in CSRS. For employees covered by CSRS, MCC contributes 7 percent
   of their gross pay toward their retirement benefits. For those employees covered by FERS,
   MCC contributes 11 percent of their gross pay toward retirement. Employees are also
   allowed to participate in the federal Thrift Savings Plan (TSP). For employees under FERS,
   MCC contributes an automatic 1 percent of basic pay to TSP and matches employee
   contributions up to an additional 4 percent of pay, for a maximum MCC contribution
   amounting to 5 percent of pay. Employees under CSRS may participate in the TSP, but will
   not receive either MCC’s automatic or matching contributions.

   For FY 2007, MCC has made contributions of $142,000 to CSRS, $2.4 million to FERS, and
   $849,000 to TSP. During FY 2006, MCC made retirement contributions of $761,000 to
   CSRS, $1.977 million to FERS, and $620,700 to TSP.

M. Use of Estimates

   The preparation of financial statements requires management to make estimates and
   assumptions that affect the reported amounts of assets and liabilities, the disclosure of
   contingent assets and liabilities at the date of the financial statements, and the reported
   amounts of financing sources and expenses during the reporting period. Actual results could
   differ from such estimates.

N. Contingencies

   MCC can be a party to various routine administrative proceedings, legal actions, and claims
   brought by or against it, including threatened or pending litigation involving labor relations
   claims, some of which may ultimately result in settlements or decisions against MCC. In the
   opinion of MCC’s management and legal counsel, there are no proceedings, actions, or
   claims outstanding or threatened that would materially impact MCC’s financial statements.

O. Judgment Fund




                                    Page 35 of 40
   Certain legal matters to which MCC can be named as a party may be administered and, in
   some instances, litigated and paid by other federal agencies. In general, amounts paid in
   excess of $2,500 for Federal Tort Claims Act settlements or awards pertaining to these
   litigations are funded from a special appropriation administered by the Department of the
   Treasury called the Judgment Fund. Although the ultimate disposition of any potential
   Judgment Fund proceedings cannot be determined, management expects that any liability or
   expense that might ensue would not be material to MCC’s financial statements.

P. Custodial Receivables and Liabilities

   Under current policy and procedures, MCC funds all compacts and pre-compacts with other
   countries by advancing funds on a monthly basis to cover projected needs. Such funds
   provided to the countries are required to be deposited in interest-bearing accounts, if legally
   feasible, until disbursed. The interest earned on these accounts is remitted to MCC and
   deposited into an account at the U.S. Treasury. Such interest may not be retained or used by
   MCC, but periodically is returned to the Treasury’s general funds. MCC had outstanding
   advances related to compact and pre-compact financing of approximately $30.8 million and
   $18.8 million on September 30, 2007, and September 30, 2006, respectively. MCC received
   and deposited $1.65 million and $304,000 in interest remittances on September 30, 2007, and
   September 30, 2006, respectively (see Note 2).

Q. Donated Services

   MCC may on occasion use donated services from other federal agencies and private firms in
   the course of business operations. The approximate fair market value of these donated
   services for September 30, 2007, is $123,750 and was $0 in FY 2006.

R. Transfers with Other Federal Agencies

   MCC is a party to allocation transfers with another federal agency as a transferring entity.
   Allocations are legal delegations by one agency of its authority to obligate budget authority
   and outlay funds to another agency. A separate fund account (child account) is created in the
   U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All
   allocation transfers of budget authority are credited to this account, and subsequent
   obligations and outlays incurred by the child entity are charged to this allocation account as
   they execute the delegated activity on behalf of the parent entity.

   All financial activity related to these allocations and transfers (e.g., budget authority,
   obligations, and outlays) is reported in the financial statements of the parent entity, from
   which the underlying legislative authority, appropriations, and budget appointments are
   derived. MCC allocated funds, as the parent, to USAID. In FY 2007 and FY 2006, MCC
   transferred budgetary authority of $161 million and $155 million, respectively, to USAID for
   Threshold programs.



                                    Page 36 of 40
Note 2—Fund Balance with Treasury

      The U.S. Treasury accounts for all U.S. Government cash on an overall consolidated basis.
      The Fund Balance with Treasury (FBWT) line items on the Balance Sheet for September 30,
      2007, and September 30, 2006, consisted of amounts presented in Exhibit 3-1. MCC funds its
      program and operating expenses through no-year appropriations; therefore, all unobligated
      balances as of September 30 are transferred to the compact fund category at the beginning of
      the subsequent fiscal year and are available for use in future years until fully expended.

           Exhibit 3-1: Fund Balance with Treasury as of September 30 (in thousands)
                                        September 30, 2007        September 30, 2006
         Appropriated Funds
         Unobligated                           $2,261,383                 $2,805,604
         Obligated                               3,287,907                  1,273,053
         Total                                 $ 5,549,290                $ 4,078,657

Note 3—Accounts Receivable, Net

      Accounts receivable reflect overpayments of payroll, travel, and other MCC current/former
      employee expenses. MCC does not record an allowance for doubtful accounts because these
      expenses are deemed wholly collectible. Total receivables were $68,000 and $62,000 as of
      September 30, 2007, and September 30, 2006, respectively.

Note 4—General Property, Plant, and Equipment, Net

      In March 2007, MCC revised its property capitalization threshold from an original cost of
      $25,000 or more and an estimated useful life of 2 or more years to an original cost of $50,000
      or more and an estimated useful life of 5 or more years, except for its software capitalization
      which was changed to an original cost of $200,000 or more and an estimated useful life of 5
      or more years and its information technology infrastructure capitalization to an original cost
      of $200,000 or more and an estimated useful life of 3 or more years. These revisions reduce
      MCC’s administrative costs associated with accounting for General Property, Plant, and
      Equipment (PP&E) and results in increased operational efficiency.

      MCC changed its depreciation convention, converting from a half-year convention to a
      quarter-year convention. Assets are depreciated (or amortized) quarterly over their estimated
      useful lives using the straightline depreciation method. This change resulted in additional
      depreciation expense of $181,638. As required by FASAB 21, the net effect of this change
      has been included in the FY 2007 cumulative results of operations and net position.

      MCC’s actual depreciation expense for FY2007 is $860,061.




                                       Page 37 of 40
Note 5—Leases

      MCC leases office space in two adjacent locations in Washington, D.C. These leases are on
      10-year (Bowen Building) and 8-year (City Center) lease terms that terminate on May 25 and
      May 26, 2015, respectively (see Exhibit 3-2). MCC made significant leasehold improvements
      to the office space and amortizes the improvement based on the in-service (invoice) date of
      the improvement. Amortization is calculated on a quarterly basis. These leasehold
      improvements will be reflected as a Fixed Asset on MCC’s Balance Sheet net of
      amortization.




                          Exhibit 3-2: Operating Leases Funds (in dollars)
                                                       Future Payments Due
                  Fiscal Year                              Bowen                                 City Center            Totals
        FY 2008                                            $5,394,621                            $1,889,524         $7,284,145
        FY 2009                                             5,394,621                             1,889,524          7,284,145
        FY 2010                                             6,352,911                             1,889,524          8,242,435
        FY 2011                                             6,352,911                             1,942,376          8,295,287
        FY 2012                                             6,352,911                             1,942,376          8,295,287
        After 5 Years                                      19,058,733                             5,932,834         24,991,567
        Total Future Lease Payments                       $48,906,708                           $15,486,158        $64,392,866



Note 6—Intra-Governmental Costs and Exchange Revenue

      The Statement of Net Cost reports MCC’s gross cost less earned revenues to arrive at net cost
      of operations. Costs have been illustrated by MCC specific programs (see Exhibit 3-3). The
      format of the Statement of Net Cost is also now consistent with OMB Circular A-136
      guidance. Exhibit 3-3 shows the value of exchange transactions between MCC and other
      federal entities as well as non-federal entities. Intra-Governmental Costs relate to transactions
      between MCC and other federal entities. Public costs on the other hand relate to transactions
      between MCC and non-federal entities. MCC does not have any exchange revenues.

           Exhibit 3-3: Intra-Governmental Costs and Exchange Revenue (in thousands)
                                                            Threshold


                                                                         Diligence
                                Compact




                                                                                                      Admin
                                              609(g)




                                                                                        Audit




                                                                                                              September   September
                                                                         Due




                                                                                                               30, 2007    30, 2006
        Intra-                     -         59                 -        3,567       2,789         7,741         14,156          9,428
        Governmental
        Public             81,079         17,113        75,766          29,223          77        70,181        273,439       98,992
        Total – Program    81,079         17,172        75,766          32,790       2,866        77,922        287,595      108,420




                                             Page 38 of 40
Note 7— Adjustments to Beginning Balance of Budgetary Resources

      In FY 2006, $17.7 million of amounts appropriated under the FY 2006 Foreign Operations,
      Export Financing and Related Programs Appropriations Acts (Public Law 109-148) were
      rescinded. The rescission was part of the Across-the-Board Rescission enacted for FY 2006.

      There were no adjustments to the FY 2007 beginning balances of Budgetary Resources.

Note 8—Explanation of Differences Between the SBR and the Budget of the U.S.
Government

      MCC ensures that the information reported on its books is reflected within the Budget of the
      U.S. Government. Because MCC’s financial statements are published before the President’s
      Budget, this reconciliation is based on the Statement of Budgetary Resources for FY 2006
      and the 2006 actual data reported in the President’s 2008 budget submission. FY 2007 actual
      data will be published in February 2008 within the 2009 Budget of the United States.
      Material differences reported in the Budgetary resources column ($2.053 billion) represent
      unobligated balances reported on MCC’s SBR and SF 133, but not in the Budget of the U.S.
      Government. Material differences reported in the Total Outlays column represent SF 133
      outlays reported by USAID in FY 2006 that were not reported timely to MCC to present in its
      FY 2006 financial statements. (See Exhibit 3-4.)

     Exhibit 3-4: Material Differences Between the SBR and the President’s Budget (in millions)
                                                                                 Distributed
                                              Budgetary         Obligations      Offsetting
                                              Resources          Incurred         Receipts     Net Outlays
       Statement of Budgetary Resources             3,806            1,109                           109
       Unobligated Balance Carry Forward          (2,053)
       from FY 2005
       Unreported Outlays                                                                              2
       Budget of the U.S. Government               1,753                                 1           111

Note 9—Undelivered Orders at the End of the Period

      The reported net position consists of unexpended appropriations and cumulative results of
      operations, which reflects the difference between financing sources and expenses since
      MCC’s inception. Exhibit 3-5 represents Undelivered orders—unpaid for compact and 609(g)
      funds as of September 30, 2007 and September 30, 2006.

              Exhibit 3-5: Undelivered Orders—Compact and 609(g) Funds (in dollars)
         Undelivered Orders                2007              Compacts         609(g) Funding       2006
       Armenia                         $ 227,716,911        $ 227,716,911        $        -    $ 235,646,174
       Benin                             293,870,370          293,870,370                 -        1,062,985
       Cape Verde                         96,151,990           96,147,871             4,119      106,077,520



                                           Page 39 of 40
         Undelivered Orders                  2007             Compacts         609(g) Funding          2006
       El Salvador                       458,715,779           458,715,779
       Georgia                           265,875,250           264,656,190            1,219,060      296,178,084
       Ghana                             538,097,271           537,668,659              428,612       13,584,891
       Honduras                          204,027,319           204,027,319                    -      213,166,147
       Kenya                                  25,000                25,000                    -                -
       Lesotho                            16,078,147            15,668,416              409,731          902,934
       Madagascar                         87,042,735            87,042,735                    -      103,290,130
       Mali                              462,993,330           458,630,248            4,363,082        4,421,534
       Morocco                            32,400,000            32,400,000
       Mozambique                         31,254,763            25,346,200            5,908,563       12,956,078
       Nicaragua                         165,314,884           165,314,884                    -      173,583,320
       Senegal                             1,930,524                     -            1,930,524        4,882,237
       Tanzania                            9,800,000                     -            9,800,000                -
       Vanuatu                            63,683,392            63,683,392                    -       65,214,603
       Total–Undelivered Orders       $2,954,977,665        $2,930,913,974          $24,063,691   $1,230,966,637

Note 10—Reconciliation of Net Cost of Operations to Budget

      Exhibit 3-6 reconciles the FY 2007 resources available to MCC to finance operations with the
      net cost of operating MCC’s programs. Some operating costs, such as depreciation, do not
      require direct financing sources. This exhibit illustrates the reconciliation of Net Cost of
      Operations to Budget.

              Exhibit 3-6: Reconciliation of Net Cost of Operations to Budget (in dollars)
         Resources Used to Finance
                Activities                                               Program Costs
       Budgetary Resources Obligated
       Net obligations                           $2,189,975,151       Gross Costs                 $287,595,725
       Net other resources used to                    1,936,792
       finance activities
       Total resources used to finance              2,191,911,943
       activities
       Total resources used to finance              (1,905,176,279)   Less: Earned Revenue                    -
       items not part of the net cost of
       operations
       Total resources used to finance                286,735,664
       the net cost of operations
       Total components of net cost of                    860,061
       operations that will not require or
       generate resources
       Net Cost of Operations                    $ 287,595,725        Net Cost of Operations      $287,595,725




                                             Page 40 of 40
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
